HHS/OIG-Audit--"Review of GEM Physical Therapy, Inc. (A-04-99-01200)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of GEM Physical Therapy, Inc.," (A-04-99-01200)
December 30, 1999
Complete
Text of Report is available in PDF format (725 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides you with the results of the Review of Outpatient Rehabilitation Facility (ORF) services provided
by GEM Physical Therapy, Inc. (the Provider), during Fiscal Year (FY) ended December 31, 1997.
The objectives of this review were to determine: (1) whether Medicare payments to the Provider were for services which
met the Medicare eligibility and reimbursement requirements, and (2) whether the costs claimed were in accordance with
Medicare guidelines.
Our review showed that the Provider was reimbursed for $475,996 in unallowable services and non reimbursable costs.
The Provider was reimbursed $258,185 for services that did not meet the Medicare eligibility and reimbursement requirements.
The Fiscal Intermediary (FI) medical reviewers concluded that all 20 selected beneficiaries had been provided services
which were not authorized by physicians, not documented, and/or not reasonable or medically necessary.
The Provider also claimed $217,811 in costs that were not reimbursable according to Medicare guidelines.
We believe the Provider claimed unallowable services because it did not ensure that the services were billed in accordance
with Medicare reimbursement guidelines. We also believe unallowable and non reimbursable costs were claimed because the
Provider did not ensure that Medicare guidelines relating to cost reimbursement were applied correctly.
We also found $14,604 in interim payments made to the Provider by the FI and not reflected in the Medicare Cost Report
FY 1997. This was due to a 4 month lag between the filing of the actual Cost Report and the processing and the issuance
of the Provider Statistical and Reimbursement Report.
We are recommending the Health Care Financing Administration (HCFA) direct the FI to:
recover the $475,996 in overpayments for 1997;
conduct additional claim reviews to identify other unallowable services; and
adjust the 1997 Medicare cost report to reflect the $14,604 and any other updated interim payment information.